STATEoFALABAMA

OFFICE OF THE ATTORNEY GENEN^E.ISI

STEVEN T. MARSHALL

IVASHINGTONAVENUE
P.O.

ATTORNEYGENERAL

BOX300t52

MONTGOMERY, AL 36I

(3341242.73,00

January

27

, 2O2l

W.AGO.MNA.GOV

Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: Barksdale u. Dunn
Case No. 20-6498

Dear Mr. Harris:

I am writing to request an additional extension of time to file the
State of Alabama's brief in opposition in the above-captioned case. The
State's brief in opposition is due in this Court on February 3, 2O2I. This
further extension is necessary because undersigned counsel is

extensively involved in the execution litigation concerning Willie B.
Smith, III., whose execution is set for February ll,2O2l.

The State of Alabama requests an additional 30 days. After
communicating with the Petitioner's counsel, this request is unopposed.
The State's brief in opposition would then be due on March 5,2O2L.
Thank you for your assistance in this matter.

Sincerely,

s/ Beth Jo,ckson Hughes
Beth Jackson Hughes
Assistant Attorneg General

cc: Steven Marc Schneebaum
sms@smslawdc. com

g(X't52

